         estimony

                       STATEMENT OF
                    ROBERT J. LIEBERMAN
               ASSISTANT INSPECTOR GENERAL
                  DEPARTMENT OF DEFENSE
                        BEFORE THE
                TASK FORCE ON DEFENSE AND
                 INTERNATIONAL RELATIONS
                 HOUSE BUDGET COMMITTEE
                             ON
                  DEPARTMENT OF DEFENSE
                  FINANCIAL MANAGEMENT



Report No. D-2000-167         DELIVERED: July 20, 2000



             Office of the Inspector General
                 Department of Defense
                                                                2


Mr. Chairman and Members of the Task Force



I am pleased to have the opportunity today to discuss the

efforts of the Department of Defense to account for its funds

and physical assets, provide useful financial information to

decision makers, and operate its huge payroll and contractor

payment operations efficiently.



I would like to begin by underscoring both the critical

importance of sound financial management and the unavoidable

complexity of finance and accounting operations in an

organization as large as the DoD.   It is useful to keep in mind

that the Department is the largest holder of U.S. Government

physical assets ($one trillion), has the most employees (about

1,500,000 active military and 710,000 civilians), owns the most

automated systems, administers the most complicated chart of

accounts, and manages the most diverse mix of operating and

business functions of any Government Agency.



The average monthly finance and accounting workload includes

cutting 5 million paychecks, taking 920,000 contract or purchase

actions and reporting commitments, obligations, expenditures and

other data for many thousands of accounts.
                                                                3


PAST PRACTICES AND RESULTING CHALLENGES



The Department’s accounting systems and financial reporting

practices mirrored its overall management philosophy during

the 1950’s through 1980’s.   Most DoD business processes--

acquisition, inventory management, maintenance, training, and

many others were decentralized; controlled in theory by

elaborately detailed rules and regulations; developed

unilaterally by organizations operating within their own

functional “stovepipe” with insufficient coordination with other

stakeholders; and often labor intensive despite the use of many

thousands of automated systems.



In the finance and accounting area, each Military Department

operated dozens of systems; data element standardization was

never effectively enforced; DoD accounting policies were

enunciated in a Handbook whose precepts were not mandatory and

therefore were widely ignored; and the primary focus of

financial reporting was on funds control, not on providing the

full range of financial data needed by managers.   In retrospect,

it is remarkable how infrequently the DoD accounting community

was asked questions along the lines of how much does it cost to

run a base, fill a requisition or operate a warehouse.    To this

day, when such cost information is needed, managers frequently
                                                                  4


must hire consultants to make estimates or use special data

calls instead of relying on standard reports, often with

questionably reliable results.



During the 1990’s, a combination of factors highlighted many

longstanding DoD financial management problems and created new

challenges for DoD.     Those factors included:



•   The centralization of most DoD finance and accounting

    functions into the Defense Finance and Accounting Service

    (DFAS) in 1991 was a long overdue initiative to streamline the

    organizational structure in this area.   Establishing a central

    organization is never easy, because users and customers are

    leery about the quality of service they will receive from

    offices they no longer directly control and some elements of

    the workforce resist change.   In the case of DFAS, the usual

    problems were compounded by the compelling need to make deep

    workforce cuts rapidly and close many finance offices, as DoD

    sought to reduce its support costs.   The downsizing effort was

    a major preoccupation for the first several years of DFAS’

    existence.   In addition, DFAS was created at the same time the

    Department was expanding its revolving fund concepts to

    require users of services to pay for the total costs of those

    services.    DFAS soon became immersed in arguments with
                                                                    5


    customers over fees for services that previously had appeared

    free or cheaper from the users’ standpoints.    Some users

    continue to regard DFAS as a monopoly with inadequate

    incentives for cost reduction or service quality improvements.



•   The Chief Financial Officers (CFO) Act of 1990 required

    preparation and audit of financial statements of revolving

    funds, trust funds and commercial-like functions throughout

    the Federal Government.   Additionally, the Departments of the

    Army and Air Force were designated as pilot programs,

    requiring preparation and audit of financial statements for

    the General Funds of those Services.    The Federal Financial

    Management Act of 1994 expanded the requirement for annual

    audited financial statements to all DoD funds, as well as

    Government-wide financial statements.    The DoD and many other

    Government agencies lacked the systems, controls and policies

    for complying with those requirements.



•   The Federal Financial Management Improvement Act of 1996

    requires the head of each Federal agency to prepare a

    Remediation Plan if the agency’s financial management systems

    do not comply substantially with Federal accounting standards,

    requirements for financial management systems, and the U.S.

    Government Standard General Ledger at the transaction level.
                                                                   6


    The Department’s systems cannot meet any of those standards

    and therefore the DoD is implementing a Remediation Plan.



•   The National Defense Authorization Act of 1998 requires the

    Secretary of Defense to submit to Congress a biennial

    strategic plan for the improvement of financial management

    within DoD.   The Biennial Plan is to address all aspects of

    financial management, including the finance systems,

    accounting systems, and data feeder systems that support

    financial functions.   The Authorization Act also included

    additional detailed requirements for a statement of

    objectives, performance measures, schedules, and the

    identification of individual and organizational

    responsibilities for Special Interest Items.   Because of

    other, similar reporting requirements, the Department now

    considers this to be an annual report.



•   Previous Government accounting and auditing standards were

    inadequate for CFO Act implementation and private sector

    financial reporting methods cannot be adopted by the public

    sector without considerable modification.   Therefore, over

    the past few years, the Federal Accounting Standards Advisory

    Board (FASAB) has issued 18 new accounting standards and

    3 concepts.   Each of these standards has generated very
                                                                  7


    significant new workload requirements for the DoD managers who

    are trying to make systems “CFO compliant,” for the preparers

    of financial statements, and for the auditors.   The standards

    also require further clarification and interpretation, as with

    any new set of policies.



•   Because of its size, the DoD is required to prepare financial

    statements for both the overall Department and for numerous

    large component entities, such as each Military Department’s

    General Fund.   No other Federal Agency has an equivalent

    accounting and auditing workload.   The annual financial audits

    alone consume about 400 staff workyears of my office and the

    Military Department audit organizations.   The full cost of DoD

    CFO Act compliance effort has never been identified.



FINANCIAL STATEMENT AUDIT RESULTS



Neither the full integration of DoD support operations,

including financial management, nor the achievement of clean

audit opinions on the consolidated DoD financial statements are

feasible short term goals.     The Department remains several years

away from being able to achieve favorable audit opinions on most

major financial statements, although breakthroughs on a few

individual statements are likely over the next couple years.
                                                                 8




The DoD efforts to compile and audit the FY 1999 financial

statements, for the Department as a whole and for the

9 subsidiary reporting entities, were massive.   Nevertheless

they could not overcome the impediments caused by poor systems

and inadequate documentation of transactions and assets.    In

terms of opinions, the audit results differed little from the

past several years.   A clean opinion was again issued for the

Military Retirement Fund, but disclaimers were necessary for all

other funds, including the DoD-wide consolidated statements.



The scope of accounting adjustments to financial statements is

one of the best indicators of how difficult it has been for DoD

to emulate private sector financial reporting practices.    When

the financial reporting system of a public or private sector

organization cannot generate fully reliable financial

statements, accountants sometimes make accounting entries, often

as recommended by auditors, to complete or correct the

statements.   Making major entries or adjustments to override,

correct or transfer data is not the preferred way of doing

business and there is considerable attention paid to any

significant change made to official accounting records.    The

notion of accounting entries being made on a mass scale, in most

cases to compensate for underlying system problems, is
                                                                 9


completely foreign to Corporate America, as is the prospect of

any such adjustments being unsupported by clear audit trails.

In fact, accounting adjustments are closely scrutinized for

fraud indicators.



The audits of the FY 1999 DoD financial statements indicated

that $7.6 trillion of accounting entries were made to compile

them.   This startling number is perhaps the most graphic

available indicator of just how poor the existing systems are.

The magnitude of the problem is further demonstrated by the fact

that, of $5.8 trillion of those adjustments that we audited this

year, $2.3 trillion were unsupported by reliable explanatory

information and audit trails or were made to invalid general

ledger accounts.    About $602.7 billion of accounting entries

were made to correct errors in feeder reports.



I will discuss some of the other specific problems in the

statements later in this testimony, but first I would like to

mention our longstanding concern about measuring where the DoD

CFO Act compliance effort stands.
                                                                10


MEASURING PROGRESS



Audit opinions on the annual agency financial statements still

are the sole widely used metric for quantifying progress by the

Federal Government toward accurate and, by implication, useful

financial reporting.   Unfortunately, this means that

considerable improvement can be made in each of the huge DoD

reporting entities without any effect at all on the overall

audit opinions.   For example, the Air Force made a concerted

effort to correct records and compile support for transactions

so that a favorable audit opinion could be achieved on its

Statement of Budgetary Resources (SBR), which is a key part of

the Air Force General Fund financial statements.

Notwithstanding these numerous improvements and corrections, the

effort could not overcome the problem of an unreliable opening

balance.   Despite a relatively near miss, the Air Force SBR

audit result for FY 1999 is scored as another failure for the

Department, one of many disclaimed audit opinions, but this is

only part of the story.



Although the DoD deserves credit for the considerable effort

made to improve its financial reporting, it seems that everyone

involved—-the Congress, the Office of Management and Budget, the

audit community and DoD managers—-have at best a general sense
                                                                11


of how much progress has been made, what is the planned pace of

further action, how much remains to be done and how much risk

exists in terms of meeting goals and schedules.    Nor has it ever

been clear, as previously mentioned, how much the various

aspects of this effort have cost to date, how much more will be

needed and whether the effort is sufficiently resourced.



Ironically, although the Department annually compiles voluminous

documents in response to statutory requirements for multi-year

financial management improvement plans and other data, very

little of that information is consistently updated, analyzed and

used for day to day program management or frequent senior

management oversight.   Much of it has to be collected in annual

data calls to the DoD component organizations.    The various

reports to OMB and Congress, the annual financial statement

audits, and even supplementary audits cannot substitute for

structured, readily accessible, meaningful and frequent internal

management reporting.   Current data on project performance, cost

and schedule status should be routinely provided up a clearly

defined program management chain and shared with external

reviewers.   What has been in place up until now has been a

1970’s or 80’s management model.
                                                                   12


APPLYING YEAR 2000 LESSONS LEARNED



In our November 1999 report, Deficiencies in FY 1998 DoD

Financial Statements and Progress Toward Improved Financial

Reporting, we recommended that DoD emulate its highly successful

“Y2K” management approach to address the challenge of attaining

CFO Act compliance.     As was the case with the Y2K conversion,

the CFO Act challenge has been designated by the Secretary of

Defense as a high priority and it is fundamentally a systems

problem.   Therefore it can be addressed most effectively if

there are goals, criteria and milestones set forth in a clear

management plan that involves all DoD organizations and

functional communities, because it cannot be overcome

unilaterally by the Chief Financial Officer without the active

assistance of the rest of the Department.     Like Y2K compliance,

CFO Act compliance needs extensive audit verification and

testing, and the Congress, OMB and GAO are all strongly

interested in measuring progress toward the goal.     There would

be several advantages to this approach.     The Department knows it

works, managers and the Congress are familiar with terminology

related to defined phases and system status, and it entails

fairly simple and verifiable metrics to show progress and

highlight risk areas.
                                                                 13


Although the Department reports in its current Financial

Management Improvement Plan that the Y2K concept has been

adopted, implementation has been disappointingly slow and key

Y2K process attributes are still missing.   The Plan of September

1999 established March 31, 2000, as the milestone for completing

the Assessment Phase for CFO Act compliance of 168 critical

systems, but we understand this milestone has slipped until

later this year.   Despite the Y2K program experience that

initial system assessments and status reports often were overly

optimistic, incomplete or inconsistent, audit community

involvement in validating milestone status has been limited.

This is in marked contrast to the Y2K conversion effort, which

we supported on a massive scale and whose managers shared status

reporting with the auditors on a virtually continuous basis.      To

help redress this weakness, we plan to issue at least one report

this year on the Assessment Phase, based on a self-initiated

audit.



The Biennial Plan did not identify an overall milestone to

correct all system deficiencies and fully integrate the

financial management systems.   The Plan stated that compliant

finance and accounting systems are expected to be in place by

FY 2003, which likely is optimistic.   Significantly, the Plan

did not provide a specific date goal for correction of all
                                                                  14


feeder system deficiencies.    Because the logistics, personnel,

acquisition and other feeder systems provide from 50 to 80

percent of all data, this is a crucial gap in last year’s plan.



We have identified feeder systems with intermediate target dates

extended beyond the FY 2003 milestone for the finance and

accounting systems.     For example, the Army Standard Installation

and Division Personnel System had a September 2005 milestone for

improvements.   It is important that there be a clear

understanding of the plan for those feeder systems and intensive

management of this vital segment of the overall effort.    We will

work with the Department this summer to strengthen management

oversight and the next iteration of the plan.    We consider it

crucial that the Department act now to be able to provide the

incoming Administration with a clear and realistic roadmap of

what needs to be done to attain a new generation of fully

capable systems and clean audit opinions on the output of those

systems.



USEFUL FINANCIAL DATA



In adopting the private sector practice of audited annual

financial statements, the Congress clearly expected improved

financial management.    The lack of performance metrics and cost
                                                                15


data, as previously discussed, handicap an assessment of whether

the effort to attain auditable financial statements has been

worthwhile.    The more important question to be asked, however,

is whether data produced in compliance with Federal Accounting

Standards and validated in financial statement audits is useful

to users--managers and the Congress.    Because much of the data

rolled up into annual financial statements is also provided to

users in various reports and budget exhibits, frequently often

during the year, the focus should be across the spectrum of

financial information reported within and by the Department, in

whatever form.



We fully agree with the General Accounting Office that a clean

audit opinion would not necessarily be synonymous with

responsive financial information that enables sound decision

making by program officials and resource allocators.    This would

be particularly true if the financial statements were formulated

using ad hoc procedures for bypassing the official financial

systems and records that are relied on for day to day management

information.



Questions on the usefulness of various financial reports can

best be answered by the users, not auditors or accountants.

Unfortunately, we are unaware of much feedback to the DoD CFO
                                                                 16


community along those lines from other managers or Congress.

Hopefully this dialogue will expand in the future, so that the

accounting community has the best possible idea of what managers

and the Congress actually need, when and in what form.



ASSET ACCOUNTABILITY



Accounting and auditing standards can be very arcane.    In my

view, some of the property valuation issues confronting the

Department are marginally relevant in Government and will never

have any impact on DoD decision making.   However, other

management information deficiencies identified by the financial

statement audits have very practical implications.   For example,

inventory management has been a high risk area for DoD for many

years.   Having complete, accurate and timely data on inventory

is essential for logistics readiness and for making good

procurement and disposal decisions.



Examples of inventory accuracy problems were highlighted in our

report on Inventory Accuracy at the Defense Depot, Columbus,

Ohio, February 27, 1997, and a follow-up report on Assuring

Condition and Inventory Accountability of Chemical Protective

Suits, February 25, 2000.   For the first audit, we observed an

inventory count of chemical protective suits, which must be
                                                                17


carefully controlled as a critical warfighting item.     The audit

disclosed major discrepancies between the Columbus Depot’s

records and the actual number of chemical protective suits on-

hand.   The audit indicated 423,062 fewer protective suits

actually on-hand than in the records.     At other locations on the

premises that were not designated as containing protective

suits, we found an additional 696,380 protective suits that were

not on the inventory records.     This loss of control was caused

by poor management practices, rather than by problems with the

automated inventory records system.     Management took action to

regain control of the chemical protective suits and temporarily

corrected its records.     Shortly thereafter, as part of efforts

to consolidate overall supply depot operations, the protective

suits were transferred to the Defense Depot at Albany, Georgia.



Last year, we observed the physical inventory count for 158

items stored at the Defense Depot, Albany.     One of the sampled

items was one of the types of protective suits that we had

addressed in 1997.   We discovered that, instead of improving

inventory management, the transfer of the protective suits had

had the opposite effect.     The inventory records were again

materially inaccurate.     Although the records indicated 225,202

protective suits on hand, the physical count was 31,277 less.

We also reported that these suits had been involved in a
                                                                 18


criminal investigation by the Defense Criminal Investigative

Service, were potentially defective, and should have been

withdrawn from active inventory.   This problem was not caused by

the inventory record errors, but does illustrate that financial

audits can have a variety of benefits and highlight problems

other than poor accounting.   The inventory records have again

been corrected and the potentially defective suits have been

designated as usable for training only.



FINANCIAL LIABILITIES FOR ENVIRONMENTAL CLEANUP



Another area where DoD financial statements have been materially

deficient, and which involves controversy about the practicality

of the new accounting standards, is the recognition of

liabilities for environmental costs to dispose of equipment and

clean up DoD installations.   We were unable to verify the

$79.7 billion reported for environmental liabilities on the

FY 1999 DoD Agency-wide Balance Sheet.    The reported amount, as

large as it is, was clearly understated.



The magnitude of DoD environmental cleanup requirements has been

a matter of intense DoD and Congressional interest for many

years, but information on costs is fragmented and often

unreliable.   It would seem logical that costs identified in
                                                                  19


budget exhibits, other DoD environmental program reports,

Selected Acquisition Reports and financial statements should be

as consistent as possible, reconcilable and supported.    More

work is needed to move toward that goal.    Specifically, there

are unresolved issues regarding when to recognize environmental

disposal costs for other than nuclear powered weapon systems on

financial statements.    Also, the cost estimates for installation

cleanup need improvement.



For example, the $20.7 billion equipment disposal portion of the

overall environmental liability estimate was clearly incomplete,

although improved over previous years.    The Air Force reported

nothing.   The Navy, in contrast, estimated $11.5 billion for

nuclear-powered submarine and ship disposal.



An open issue remains on when to recognize environmental

disposal costs for most DoD weapon systems on the financial

statements—-as soon as estimates are made as part of initial

weapon system life cycle costing or much later when disposal

decisions are made.     We are working with the Department and GAO

to resolve the question of what the accounting standards require

and how much flexibility the DoD has to distinguish between

nuclear powered systems and others with different types of

hazardous materials.    Regardless of the decision, we have
                                                                 20


recommended more aggressive action by the Military Departments

to ensure that acquisition program managers include hazardous

waste handling and disposal costs in the total estimated

ownership costs of their systems.    Recent audits indicated

commendable emphasis by program managers on reducing the amount

of environmentally hazardous material that will require costly

disposal, but virtually no emphasis on including disposal costs

in life cycle cost estimates.   Both Congress and DoD have

stressed the importance of complete life cycle cost estimates

for weapon systems, and stated that support costs are the most

frequently understated category.    Disposal costs are part of

support costs.



The DoD reported $34 billion as the liability for environmental

cleanup of munitions residue at training ranges.    Reporting this

amount represents a significant improvement over FY 1998, when

cleanup liabilities for training ranges were not recognized or

reported at all.   However, reporting was incomplete and some

managers question the usefulness of collecting the data.

Although final DoD guidance for reporting liabilities for

cleanup of training ranges has not yet been published, it is

expected in FY 2000.   Also, we will issue a report next month on

inefficiencies in the processes for collecting and disposing of

range residue.
                                                               21




SIMPLIFYING ACCOUNTING REQUIREMENTS



In the mid-1990’s, we recommended that DoD and the Congress

consider ways to reduce the burden on DoD accounting offices and

the risk of errors by simplifying requirements.   The Under

Secretaries of Defense (Comptroller) and (Acquisition,

Technology and Logistics) have pressed the DoD components to

adopt measures to avoid the unnecessary use of multiple accounts

on contracts and commingling of funds from different accounts on

the same contract line item.   Likewise, our office has

periodically commented on the incredible complexity of the DoD

chart of accounts, which is probably unique in the world because

of its hundreds of thousands of accounting entities, and the

absurdly long accounting codes that result.   This multiplicity

of “colors of money” is a root cause of the formidable DoD

problems with the accuracy of accounting data, the complexity of

contracts, the difficulty of properly managing disbursements and

progress payments, the high overhead costs of DoD budget and

accounting operations, and the considerable restrictions on the

flexibility of managers to shift funds quickly to meet

contingencies.   Millions of documents must contain at least one,

and in some cases, many accounting classification codes that

typically have from 46 to 55 characters each.   Compare 12 or 16
                                                                 22


characters used for a commercial credit card to a typical Navy

fund cite:



17x1611 1936 026 54002 3 068572 ID 000151 000560852000



We believe that the DoD and Congress ought to reconsider the

need for so many discrete appropriations, budget activities,

line items, and other subaccounts.   These kinds of issues are

seldom considered in the context of management reform, but we

believe that any streamlining of DoD accounting requirements

would considerably assist managers in avoiding errors, improving

data quality, and cutting overhead costs throughout the

Department.



Unfortunately, the budget and appropriation structures are

difficult to change.   The DoD must administer at least

1,200 open appropriation accounts at any given time.   A single

appropriation may have many hundred subaccounts.   The main

driver of complexity, however, is the business practice of the

individual DoD component.   The Army, for example, has resisted

simplification of either contracts or its chart of accounts, in

effect asserting that it wishes to continue trying to capture

costs and control funds at extremely challenging levels of

detail.
                                                                  23




OTHER CONCERNS



We have concerns about information assurance, fraud and

management controls in finance operations, particularly vendor

pay.   We continue to view DFAS as a likely target for hackers

and are working closely with the Department to reduce

vulnerability to computer crime and other fraud.    Conflicting

priorities and constrained resources have minimized recent audit

coverage of vendor pay and other high risk areas related to

financial management.    Nevertheless, the results of the

relatively few audits performed recently on other than financial

statement processes provide an insight into what kinds of issues

require management attention.    For example:



•   Last November we reported that the Department’s policies on

    the timely recording of fiscal obligations needed to be

    strengthened to ensure compliance with the intent of

    applicable laws.   The Department has taken responsive actions.



•   On June 5, 2000, we reported that DFAS had improved controls

    over vendor payments made for the Air Force using the

    Integrated Accounts Payable System, but more needed to be done

    to ensure that all payments were properly documented for
                                                                 24


    compliance with the Prompt Payment Act.   About 176,000 of

    307,000 payments made from April through June 1999 lacked

    complete supporting documentation.   Although we found no

    indication of widespread fraud, better compliance with

    prescribed controls would diminish the risk of fraud and non

    compliance with laws such as the Prompt Payment Act.



•   On June 9, 2000, we reported that management controls over the

    National Drug Control Program funds received by DoD were

    reasonable; however, the manual process used to report the

    status of those funds to the Office of National Drug Control

    Policy was not linked to the official accounting records.    As

    a result, we were unable to attest to the accuracy of the

    annual report for FY 1999 as required by Public Law 105-277,

    the Office of National Drug Control Policy Reauthorization Act

    of 1998.   This is a good example of the current inability of

    DoD accounting systems to provide information needed by the

    DoD and Congress, necessitating special workaround measures.



•   On June 16, 2000, we reported that the DoD had not rigorously

    applied the principles set forth in the Clinger-Cohen Act when

    approving the acquisition strategy for the Defense Joint

    Accounting System.   The planning for this new system,

    currently intended to be one of four DoD systems for multi-
                                                                   25


    organization general fund accounting, has been severely

    criticized by the House Armed Services and Appropriations

    Committees.    The main concerns are the lack of a sound

    analysis of alternatives and the poor precedent involved in

    the combined Milestone I and II approval for the project

    despite the absence of that analysis.



•   On June 29, 2000, we reported that controls needed improvement

    to ensure that payroll withholding for DoD civilians was

    accurate.     A limited sample of withholding in 279 individual

    accounts indicated errors in 24 accounts and inadequate

    supporting records in DoD personnel offices.    This is an

    example of a payment problem that is caused by erroneous input

    from feeder systems, not by errors in the finance office, but

    the tendency is to blame DFAS.



CONCLUSION



Mr. Chairman, every time we testify on DoD financial management,

we assert that sustained involvement by senior managers and the

Congress are vital ingredients for progress.      This remains very

much the case and we urge the Task Force to continue its

dialogue with the Department on these tough issues.      Despite

commendable progress, the DoD remains far from CFO Act
                                                                 26


compliance and continued measures will be needed over the next

several years to achieve success.    The DoD audit community,

which has invested so much effort and resources in this area

over the past several years, very much appreciates your interest

in our activities and viewpoints.    The titles of some of our

reports that are applicable to this testimony are attached, for

ready reference.



Finally, I would be remiss if I did not mention that the DoD

audit community has an outstanding relationship with the

Department’s financial managers and virtually all of our

recommendations have been accepted over the past several years.

Likewise, the advice of the General Accounting Office has been

very helpful to us and we will continue working closely with

them to provide DoD and Congress with a well rounded picture of

DoD financial management issues.    This concludes my statement.
                                                                27


           Examples of FY 2000 Inspector General, DoD,
         Reports and Testimony related to this Statement


No. 2000-030, Recording Obligations in Official Accounting
Records, 11/4/99

No. 2000-041, Deficiencies in FY 1998 DoD Financial Statements
and Progress Toward Improved Financial reporting, 11/26/99

No. 2000-069, FY 1998 Department of Defense Agency-Wide
Statement of Budgetary Resources, 12/29/99

No. 2000-077, Testimony by Deputy Inspector General, DoD, to the
House Budget Committee on Defense Management Challenges, 2/17/00

No. 2000-086, Assuring Condition and Inventory Accountability of
Chemical Protective Suits, 2/25/00

No. 2000-091, Internal Controls and Compliance with Laws and
regulations for the DoD Agency-wide Financial Statements for
FY 1999, 2/25/00

No. 2000-120, Testimony by Assistant Inspector General for
Auditing, DoD, to Subcommittee on Government Management,
Information and Technology, House Committee on Government Reform
5/7/00

No. 2000-121, Hazardous Material Management for Major Defense
Systems, 5/4/00

No. 2000-136, Reporting of Performance Measures in the DoD
Agency-Wide Financial Statements, 5/31/00

No. 2000-139, Controls Over the Integrated Accounts Payable
System, 6/5/00

No. 2000-151, Acquisition of the Defense Joint Accounting
System, 6/16/00

No. 2000-156, DoD Payroll Withholding Data for FY 1999, 6/29/00


            All reports and testimony listed above are
           available on the Internet at www.dodig.mil.
